                Department of Veterans Affairs
                Office of Inspector General



                  Office of Healthcare Inspections

Report No. 13-01123-249




                Healthcare Inspection 


 Quality and Patient Safety Concerns 

  in the Community Living Center 

 W.G. (Bill) Hefner VA Medical Center 

      Salisbury, North Carolina 





July 22, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
     Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC




                                                  Contents 

                                                                                                                   Page 


Executive Summary ..............................................................................................i

Purpose .................................................................................................................1

Background ..........................................................................................................1

Scope and Methodology......................................................................................3

Inspection Results ...............................................................................................4 

   Issue 1 - Quality of Care .....................................................................................4

   Issue 2 - Electronic Resident Monitoring System ...............................................6

   Issue 3 - Rehabilitation and VERA Funding .......................................................8 

   Issue 4 - Staff Training and Oversight ............................................................. 10 

Conclusions....................................................................................................... 11 

Recommendations ........................................................................................... 12

Appendixes 

   A. Additional Case Summaries ...................................................................... 13 

   B. VISN Director Comments ........................................................................... 20

   C. Facility Director Comments ........................................................................ 21

   C. OIG Contact and Staff Acknowledgments .................................................. 24

   D. Report Distribution ...................................................................................... 25





VA Office of Inspector General
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC



                                 Executive Summary 


The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection in response to a complainant’s allegations of poor quality of care and
patient safety concerns in the Community Living Center (CLC) at the W.G. (Bill) Hefner
VA Medical Center in Salisbury, North Carolina.

We did not substantiate that patients were improperly admitted to the CLC, and as a
result, did not receive appropriate treatment and services. With the exception of one
case, the residents named by the complainant received appropriate care and services.
In the excepted case, the resident did not receive care consistent with VHA’s defined
concept of Hospice and Palliative Care. There were no order sets for managing this
resident’s symptoms in the final hours, and CLC nurses expressed frustration as to their
own limited level of training and preparedness in caring for hospice patients in general.

While we did not identify any actual cases of patient harm, we substantiated that a high-
risk resident could wander or elope from a CLC unit and exit the building before being
located. Several factors contributed to this condition including an outdated electronic
monitoring system; an inadequate policy regarding the management of monitored
residents; inconsistent staff practices when an exit alarm is activated; and staff training
deficits. We also confirmed that some nursing staff had not received training that would
have enhanced their ability to care for certain patient populations. Specific training
deficits included behavior management techniques, end-of-life care provision, and post-
alarm procedures related to the electronic monitoring system.

We did not substantiate that, to increase Veterans Equitable Reimbursement Allocation
funding, CLC leaders admitted patients for rehabilitation even though those patients had
no rehabilitation potential. We also did not substantiate that the CLC physician does not
properly supervise the CLC nurse practitioners or that the geriatrics and Extended Care
Chief Nurse Executive does not adequately address and follow-up on staff concerns
and complaints. We did note, however, that facility leaders did not conduct a risk
assessment of the electronic monitoring system in spite of ongoing safety concerns.

The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes B and C,
pages 20–23 for the Directors’ comments.) We will follow up on the planned actions
until they are completed.




                                                             JOHN D. DAIGH, JR., M.D.
                                                           Assistant Inspector General for
                                                            Healthcare Inspections



VA Office of Inspector General                                                                        i
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC



                                           Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection in response to a complainant’s allegations of poor quality of care and
patient safety concerns in the Community Living Center (CLC) at the W.G. (Bill) Hefner
VA Medical Center in Salisbury, NC. The purpose of the review was to determine
whether the allegations had merit.

                                         Background 

The facility is a tertiary care medical center with 159 hospital and 270 CLC beds located
within Veterans Integrated Service Network (VISN) 6. The facility provides inpatient and
outpatient medical, surgical, rehabilitative, and long-term care services and is affiliated
with Wake Forest University School of Medicine.

VHA’s transformation of the culture of care in CLCs emphasizes resident-centered care
in a stimulating and home-like environment that encourages resident mobility and
socialization. The CLC’s physical layout centers around a “Main Street” atrium featuring
plants and trees, café-style seating, walking “paths,” and a pond. The area also
includes a small retail shop, barbershop, movie theatre, and live music. The four
operational CLC units, referred to as “neighborhoods,” are shaped in a horseshoe
surrounding the atrium. Units 42-1C and 42-1D are located on the 1st floor and are
connected by a common hallway between the units; units 42-2C and 42-2D are located
on the 2nd floor and are similarly arranged. Two additional units are currently under
construction. A bridge on the second floor, which overlooks “Main Street,” connects the
CLC units to the onsite physical therapy clinic and other clinical and administrative
areas.

The CLC’s four operational units have a mix of long term/custodial, rehabilitation,
dementia care, and hospice residents. While some residents in the CLC are cognitively
impaired and at-risk for wandering and elopement, a majority of the residents are not.
To give non-impaired residents reasonable freedom of movement within and outside of
the CLC, while also protecting impaired or otherwise at-risk residents, facility leaders
eliminated secured/locked units from the CLC in May 2012 in favor of an electronic
monitoring program.

Electronic wristband and anklet tracking devices are placed on patients who are
cognitively impaired or otherwise at high risk for wandering or elopement. When a
monitored patient attempts to leave a unit through a monitored exit, an alarm is
triggered, notifying employees of the breach. Employees then redirect those patients
away from exit doors. At the time of our visit, there were a total of 12 CLC residents on
the electronic monitoring program.

The Associate Chief of Staff for Geriatrics and Extended Care (ACOS/G&EC) is a
physician who has overall responsibility for the G&EC programs, including the CLC and


VA Office of Inspector General                                                                       1
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC

Hospice House. The former physician director of the facility’s hospice program left
more than 1 year ago, so the ACOS/G&EC and two geriatric nurse practitioners (NPs)
provide the primary medical care to CLC and hospice-care residents. In the remainder
of this report, we refer to the ACOS/G&EC as the CLCMD. We make this distinction to
clarify the CLCMD’s role as a patient care provider and member of the treatment team,
rather than as the G&EC Service Line director and administrator.

The G&EC Chief Nurse Executive has overall responsibility for nurses and nursing
activities in the CLC and Hospice House. Nurse staffing in the CLC is the same across
all the units, with a typical staffing construct1 as follows:

                                                                         Shift
                                         12:00am-8:00am              8:00am-4:00pm            4:00pm-12:00am
Registered Nurses (RNs)                     1 (or LPN)                       1                         1
Licensed    Practical    Nurses             1 (or RN)                        2                         1
(LPNs)
Nursing Assistants (NAs)                         2                           3                         3
TOTAL                                            3                           6                         5

Starting in November 2012, the complainant submitted a series of allegations about the
provision of care and patient safety lapses in the CLC. Specifically, the complainant
alleged that:

    	 Patients were being improperly admitted to the CLC, did not receive adequate
       pain control or comfort measures at the end-of-life, and did not receive critical
       medical care and services.
    	 The electronic monitoring system does not ensure resident safety as residents
       can leave the unit(s) and staff members may not always be able to intervene
       before an adverse event occurs; staff are overwhelmed by the constant need to
       redirect residents; and the system’s ankle bracelets compromise residents’ skin
       integrity.
    	 CLC leaders are admitting patients for rehabilitation to increase Veterans
       Equitable Reimbursement Allocation (VERA) funding.
    	 Nursing staff do not possess the necessary clinical expertise and have not been
       trained to consistently meet quality of care standards for certain patient
       populations.
     The CLCMD does not make “walking rounds” or properly supervise the CLC
       NPs.
     The G&EC Chief Nurse Executive does not adequately address and follow-up on
       staff concerns and complaints.

We did not review new allegations that were submitted during or after our site visit in
late February 2013. Further, the facility had initiated an internal review of an issue that
was tangential to our inspection. In accordance with OIG policy and practice, we did not

1
  The staffing mix is slightly different on the units, with unit 1D requiring one less LPN or NA per shift than the
other CLC units. This staffing construct does not apply to the Hospice House.


VA Office of Inspector General                                                                                   2
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC

pursue this issue in order to permit the facility time to complete its investigation. We will
review that report when it is complete.

                                 Scope and Methodology

We conducted a site visit February 25–28, 2013. Prior to our visit, we interviewed the
complainant by telephone. We reviewed facility and Veterans Health Administration
(VHA) policies, directives, and handbooks; patients’ electronic health records; patient
advocate and facility-level reviews and reports; nurse staff training records; and CLC
and Hospice House census and nurse staffing ratios.

While on site we interviewed the Hospice House and CLC nurse managers and staff;
the CLCMD; the Chief of Infectious Disease; the G&EC Chief Nurse Executive; the
Chief of Facilities Management and engineering staff; the G&EC NPs, social workers,
and psychologist; and other clinical and administrative staff knowledgeable about the
issues. In addition, we conducted a safety and physical inspection of the CLC, Hospice
House, and the connecting hallways and elevators.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                       3
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC



                                  Inspection Results 

Issue 1: Quality of Care

The complainant alleged that some CLC residents were not receiving adequate care.
To support the allegations, the complainant provided the names of several residents
who:

   a) were improperly admitted to the CLC and staff were not equipped to manage
      their care; or
   b) did not receive adequate pain control or comfort measures at the end-of-life, and
      were not referred to Hospice House; or
   c) did not receive critical medical care and services.

We did not substantiate allegation (1a). We found that patients were appropriately
screened for admission through the designated interdisciplinary screening committee as
required by policy. However, we confirmed that some CLC nursing staff had not
received training to assist them in managing patients with challenging behaviors.

We substantiated that one of the residents named by the complainant in allegation (1b)
did not receive care consistent with VHA’s defined concept of Hospice and Palliative
Care (HPC); however, we could not confirm that he was refused admission to the
Hospice House. Again, we found that some CLC nursing staff had not received
specialized training that would have enhanced their ability to care for patients at the end
of life.

We did not substantiate allegation (1c).           The residents named by the complainant
received appropriate care and services.

We reviewed the electronic health records (EHRs) of 11 residents whose names were
provided by the complainant. We found one case, as noted in (1b) above, where the
resident received substandard care in relation to HPC goals and policy. We discuss this
resident’s case in detail below. We did not substantiate the allegations related to the
remaining residents. Detailed case summaries can be found in Appendix A. Further,
we found staff training deficits. See Issue 4-Staff Training and Oversight, for details.

Case 1

The patient was in his early 60s and had a complex medical history including
hypertension, diabetes mellitus, vascular dementia, heart failure, and chronic pain. He
had been a CLC resident since February 2012. In early October, the patient
complained of chest pain, was transferred to the emergency department (ED) for
evaluation, and was sent via ambulance to a private-sector hospital for emergency
cardiac catheterization. The patient returned to the CLC 6 days later, but EHR
documentation cited a progressive decline in his functional status and a survival
prognosis estimate of “weeks to months.” The patient was found to meet criteria for


VA Office of Inspector General                                                                       4
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


outpatient hospice care by the Palliative Care Consult Team (PCCT). The stated
objective of the PCCT in accepting him into hospice was to meet the traditional hospice
care goals of ‘total comfort and support’ in end-of-life care.” In early November, the
patient was admitted to a private-sector hospital for an acute coronary event and then
transferred to the facility for further care and evaluation. As care requirements had
proven problematic in the home setting, the patient was admitted to the facility’s CLC in
mid-November, designated as hospice-level care.

Over a 2 day period in early December, the patient experienced increasing
restlessness, repeatedly attempting to get out of bed. Concurrently, his wife voiced
concerns to the nurses about her husband’s comfort level. Vital signs revealed rapid
heart and respiratory rates and a reduced arterial oxygen level despite ongoing oxygen
supplementation. Due to the patient’s clinical deterioration, CLC nurses attempted to
contact the medical officer of the day (MOD) in the early hours of day 2. Despite
multiple calls, the nurses were unable to readily reach the MOD and, at one point, were
redirected to a recorded message that offered “no one is available.” After approximately
1 hour, a nurse reached an on-call physician who issued a telephone order for the
patient to receive a one-time narcotic dose. Later in the day, nurses documented that
the patient’s pain levels were increasing. His wife again voiced her concern as to the
patient’s “overall comfort level.” During the afternoon hours of day 2, CLC nurses
described the patient as continuing to be restless and anxious, with rapid breathing and
“air hunger.” Due to the patient’s continuing distress, a CLC nurse contacted the duty
nurse at the facility’s Hospice House for further guidance. The Hospice House nurse
observed the patient to be “gasping for air, restless…unable to speak.” There were no
order sets for contingency comfort measures. The MOD issued another one-time
telephone order for oral narcotic.

Later in the afternoon of day 2, the Hospice House nurse telephoned the CLCMD who
issued an order for oral morphine (as needed) and contacted the hospitalist on duty to
see the patient at the bedside. In seeing the patient later that afternoon, the hospitalist
noted continuing “agitation, confusion, and shortness-of-breath with labored breathing.”
The hospitalist felt the patient’s clinical circumstances equated to “end-of-life care” and
offered guidance on supportive measures. Later in the evening, the CLCMD evaluated
the patient and documented that he was “restless and in moderate distress.” Following
additional medication adjustment and comfort measures, the patient stabilized. He died
the following morning.

Facility policy defines hospice as a mode of palliative care with the stated goal of
achieving the best possible quality of life through relief of suffering and control of
symptoms. When designated for hospice by the facility’s PCCT, the patient’s EHR
stated his goals for care were “total comfort and support” with targeted symptoms to
include “agitation, anxiety, and pain.”

The patient’s final 48 hours of life, as chronicled by those caregivers who were at
bedside, portray ongoing, heightened distress manifested by increased difficulty
breathing, agitation, anxiety, and pain. There were initially no order sets for managing



VA Office of Inspector General                                                                       5
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


these foreseeable developments as the patient entered his final hours. Several nurses
expressed frustration over their own limited level of training and preparedness in caring
for hospice patients as well as the ready availability of on-call physician support during
the patient’s initial period of clinical deterioration. A senior clinician involved in this case
stated that the patient’s care during the final 48 hours of life was not consistent with the
defined HPC goals of “total comfort and support.”

Issue 2: Electronic Resident Monitoring System

The complainant alleged that despite suggestions to lock one CLC unit, managers
continue to utilize an electronic resident monitoring system that does not ensure
resident safety. The complainant alleged that:

   a) Residents can still leave the unit(s) and staff members may not always be able to
      find and redirect them before an adverse event occurs.
   b) Staff are overwhelmed because they must constantly respond to the alarms and
      redirect residents.
   c) The system’s ankle bracelets compromise residents’ skin integrity.

We substantiated allegation (2a). While we did not identify any cases of actual patient
harm, it is possible that a high-risk resident could wander or elope from a CLC.
Contributing factors include: (i) an outdated electronic monitoring system; (ii) an
inadequate policy regarding the management of monitored residents; (iii) inconsistent
staff practices in response to activated exit alarms; and (iv) staff training deficits
(covered in detail under Issue 4 of this report).

      A.   Resident monitoring system weaknesses

The CLC’s electronic monitoring system notifies staff via an alarm that a monitored
patient has approached or passed through a monitored doorway. It does not restrict the
patient from leaving the unit. As nursing or other unit staff can be engaged in patient
care or activities that are not in the vicinity of the alarmed exit, they may not see who left
the unit and which direction they went. The potential for a patient breach increases
when staff are involved in an emergency situation and are not able to immediately
respond to the alarm.

Facility policy did not include instructions on how staff should respond when a
monitoring alarm is activated, nor did staff receive training on the required follow-up
actions. Most of the employees we interviewed told us that they would go look for a
wandering patient who may have activated the alarm and would return him to the unit.
Some staff reported they did not turn off the alarm until they found the patient, while
others said they turn off the alarm first because the noise is “irritating.” Some staff said
they routinely call their sister unit when an alarm is sounding to ensure their monitored
patients are accounted for; other staff members did not indicate this was part of their
practice.




VA Office of Inspector General                                                                       6
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Staff also told us about “alarm fatigue,” stating that staff have become somewhat
desensitized to the alarm because it is often activated several times per shift. We had
an opportunity to observe this desensitization first-hand during our site visit when an
alarm just outside our workroom (which was in a common hallway outside a CLC unit)
sounded multiple times during our 3-day visit. In one case, the alarm sounded for more
than 10 minutes without an apparent response from unit staff.

In another case that occurred around 8:15 a.m., the alarm sounded and we heard
housekeeping staff comment that “it must be in the trash” which the housekeeper had
just rolled through the doorway. Several nursing employees shouted down the hallway
to the nursing station to get the alarm’s deactivation code. An employee shouted back
with the code and the nursing employees turned the alarm off. We saw no evidence of
any staff members looking for a patient or questioning why the alarm sounded in the
first place. Staff members did not conduct a head count of all the monitored patients on
the two units until we asked for intervention. While the actual sequence of events was
unclear, we noted that a resident from the sister unit was found outside the secured
area around the same time the alarm was sounding. All monitored residents were later
accounted for.

One interviewee told us that on occasion, staff members have thrown non-functional
monitoring bracelets in the trash. We learned that the CLCs did not have a policy or a
standard practice for excessing or returning monitoring bracelets when they expired or
became inoperable.

One passenger elevator and one freight elevator in a common hallway outside the CLC
units permitted unrestricted access to the basement. The basement had two
hallways—one to the Hospice House and the other past the Audiology Clinic and Hoptel
unit. Both had electronic monitoring sensors installed at the beginning of the hallways
nearest the elevators, but neither had staff that could visualize or otherwise monitor the
hallways. Engineering staff told us that a red light/alarm in the nursing station of a 1st
floor CLC unit would activate if a monitored patient breached one of the basement
alarms. This was not common knowledge, however, as the G&EC Chief Nurse
Executive and CLC unit nurse manager were unaware of its existence

Units 42-1C and 42-1D had double doors that opened directly into the atrium. To
accommodate residents in wheelchairs, the doors could be activated from the atrium
side via a palm-press pad. From inside the unit, the doors should have required
key/card access to open. During our tour of the area, we found one double door
accessible from the inside without a key; the condition was remediated before we left
site.

During the course of our interviews, we were also told of patients removing electronic
monitoring bracelets, sometimes as many as 10 times, and bracelets not triggering the
alarms although they had been tested and deemed functional. The facility reported one
incident since October 1, 2012, when a monitored patient left the unit and was later
found outdoors in the gazebo area. The facility determined that the patient was able to



VA Office of Inspector General                                                                       7
       Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


leave the unit undetected because his electronic monitoring bracelet was inoperable.
The patient was not harmed in this incident.

          B. Staff responsibilities

We did not substantiate allegation (2b). We acknowledge that some cognitively
impaired patients exhibit challenging behaviors requiring substantial staff time and
resources. However, we did not substantiate the complainant’s implication that the
facility should reinstitute a locked/secured unit for these patients to relieve nursing staff
of the need to monitor and redirect them.

It is widely understood that in relation to special memory care units, “Demands on staff
are greater in terms of oversight of both the people and the environment.”2 Further,
VHA Directive 2010-052, Management of Wandering and Missing Patients, December
3, 2010, states, “The use of electronic technology (e.g., patient tracking bracelets, for
those patients considered to be at-risk) may only be used as one tool to enhance and
augment other processes for minimizing the risk of patients wandering away from a
designated area or care site. This use must not be considered as a substitute for
professional vigilance and systematic verification of patients’ location.” While facility
leadership’s decision to eliminate locked units places additional patient oversight
responsibilities on staff, it supports VHA’s transformational goals in CLCs.

          C. Skin integrity

We did not substantiate allegation (2c) that the system’s ankle bracelets compromised
patients’ skin integrity. The complainant provided the name of one patient whose skin
had allegedly broken down as a result of an improperly-fitted monitoring anklet. We
reviewed that patient’s EHR and the EHRs of the nine other patients on the electronic
monitoring system in January 2013.

The patient named by the complainant is in his mid-80s and has a history of bilateral
lower extremity stasis dermatitis resulting from poor circulation. He has been a resident
of the CLC since 2008 and was placed on the electronic monitoring program after he
was transferred to an open/unsecured unit in May 2012. Nursing skin reassessment
notes, both prior to and after placement of the monitoring anklet, have repeatedly
reflected “bilateral discoloration to lower legs” or some similar descriptor consistent with
the patient’s circulatory status. Further, we noted that nurses completed weekly skin
assessments per facility protocol and that none of the 10 patients had documented skin
breakdown related to the ankle bracelets.

Issue 3: Rehabilitation and VERA Funding

We did not substantiate that, to increase VERA reimbursements, CLC leaders admitted
patients for rehabilitation even though those patients had no rehabilitation potential. In
this case, rehabilitation refers to physical therapy, occupational therapy, or

2
    Nursing Home Design Guide, Dementia Care Facility 2006


VA Office of Inspector General                                                                          8
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Kinesiotherapy designed to improve patients’ physical functioning. Depending on the
individual patient, the rehabilitation goal could be to regain strength and mobility after
hip replacement so the patient can return to independent living in his own home; in
other cases, the rehabilitation goal is to increase upper body range of motion so a
wheelchair-bound patient can feed himself and brush his own teeth.

The VERA model of funding utilizes workload and complexity data to ensure that
funding follows the workload and that more complex workload receives greater
resources. There are 60 VERA classes and 11 price groups. In general, patients
meeting criteria for a rehabilitation level of care are funded at a higher VERA
reimbursement rate than patients meeting only basic custodial care criteria. However,
many factors influence the patient’s VERA category.           Because VERA is a
reimbursement model of funding, changes to patients’ VERA categories affect future
funding, not current funding.

The complainant and another interviewee provided the names of two patients who were
allegedly improperly admitted to the CLC for rehabilitation. We reviewed the EHRs of
those two patients as well as eight additional patients that had received rehabilitation
from October 1, 2012, to the time of our site visit in late February 2013.

Case 2. One of the patients named by the complainant was a male in his eighties with
metastatic prostate cancer who was experiencing decreased strength and endurance
due to his multiple medical conditions. The patient was transferred from a general
medical unit to the CLC in mid-November. His medical unit discharge summary reflects
that during his hospitalization, the patient’s ability to ambulate improved with physical
therapy (PT). It further stated, “His daughter is willing to take care of him once he is
strong enough to go home. In the meantime, he will probably require nursing home
placement for strengthening.” A physical therapist evaluated the patient upon his
admission to the CLC the same day and documented mobility, transfer, strength, and
gait goals. The PT plan was for the patient to participate in 4-5 PT sessions per week,
with an anticipated discharge home in 14 days. Unfortunately, the patient became
increasingly ill and was unable to meaningfully participate in PT. He was placed in
hospice care and died in the CLC in early December.

Case 3. The second named patient is a male in his nineties who suffers from
progressive dementia and was no longer able to care for himself in a community setting.
The patient was initially screened in early February for CLC long-stay continuous care
(the highest VERA classification and price group). Due to some pending medical
appointments, the patient was not admitted immediately. He was rescreened and
admitted to the CLC for short-stay restorative care with a plan for discharge home or to
an assisted living facility. Although an occupational therapist noted in mid-February that
the resident’s cognitive impairment inhibited his ability to participate in rehabilitation
therapy, the patient has nonetheless continued to receive daily restorative care services
to maintain function. It does not appear that there is any plan to discharge the patient.
In this case, the resident will likely convert to a long-term continuous stay status after he
exhausts the 90 days of restorative care. According to VA eligibility rules, this resident’s



VA Office of Inspector General                                                                       9
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


service-connected status entitles him to long-term custodial care for as long as is
clinically indicated. We found no evidence that the resident’s admission for restorative
care was an attempt to gain a higher VERA reimbursement level as the resident was
eligible from the day of admission for the highest VERA reimbursement level.

In each of the other eight cases, we found that patients were admitted for valid
rehabilitation-related needs, that rehabilitation goals were appropriately documented,
and that progress towards achieving those goals (or the reasons that goals were not
met) was consistently recorded.

Issue 4: Staff Training and Oversight

We confirmed that some nursing staff had not received training that would have
enhanced their ability to care for certain patient populations. We reviewed a total of 31
training records of CLC and Hospice House nursing personnel to determine whether
staff received training related to the electronic monitoring system, hospice/palliative
care, and behavior management. The training records selected belonged to registered
nurses, licensed practical nurses, and nursing assistants, and included those who were
directly involved in the care of the patients identified in the allegations.

Of the 31 training records reviewed:
     None of the staff had received training on post-alarm procedures related to the
       electronic monitoring system.
     16 staff members had not been trained in behavior management techniques. Of
       the 15 who had been trained, a majority had received the training more than 5
       years ago.
     14 staff members had not received adequate training related to end-of-life care
       as required by The Joint Commission. Of the 17 who had been trained, 7
       received the training more than 4 years ago.

We could not confirm or refute the allegation that the CLCMD does not go on “walking
rounds.” However, we did not substantiate that this condition was evidence of a clinical
or procedural lapse. VHA does not require providers to go on “walking rounds”
(discussing patients’ care at their bedsides). We determined that the CLCMD
participates in weekly interdisciplinary treatment planning sessions, is routinely
consulted by the CLC NPs and other staff as needed, and thoroughly documents patient
care and consultation activities in the EHRs.

We did not substantiate that the CLCMD does not properly supervise the CLC NPs.
The complainant did not provide any specific examples, so we reviewed a convenience
sample of 20 residents’ EHRs (10 residents assigned to NP #1 and 10 residents
assigned to NP #2) for evidence of supervision and oversight. By design, the NPs
provide the majority of routine clinical care to CLC residents. Local policy requires the
CLCMD to “be in daily contact with regard to the [NP’s] patient care activities.” The
CLCMD must also cosign the NPs’ history and physical (H&P) notes and discharge
summaries. During our interviews and through EHR reviews, we found that the CLCMD
meets daily with the two NPs and cosigns H&Ps and discharge summaries as required.


VA Office of Inspector General                                                                      10
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Further, the NPs’ progress notes reflect discussion and consultation with the CLCMD
when more complex clinical concerns arise.

We did not substantiate the allegation that the G&EC Chief Nurse Executive does not
adequately address and follow-up on staff concerns and complaints. The examples
cited to support this allegation related to patient safety and the electronic monitoring
system, and to suggestions for a secured dementia care unit and a designated hospice
care area within the CLC.

Because we could not determine with certainty which, if any, G&EC leaders or CLC
managers were informed of patient safety concerns related to the electronic monitoring
system, or when they were informed (if at all), we could not say that any one G&EC
leader or CLC manager failed to follow-up. However, enough staff members voiced
concerns during our interviews that we believe it must have been a topic of discussion
in some forum at some time. The CLC adopted the open-unit concept almost 1 year
ago, and based on what we heard from several interviewees, concerns about the
electronic monitoring system and the safety of dementia patients has persisted since
that time. We confirmed multiple system weaknesses and patient safety concerns
during our visit.

The decision to not implement the suggested changes has been unpopular with some
nursing staff. Nevertheless, the management decision to care for wandering dementia
patients and provide end-of-life care to hospice patients on open CLC units conforms to
VHA’s transformational goals for CLCs.

                                         Conclusions 

We did not substantiate that patients were improperly admitted to the CLC, and as a
result, did not receive appropriate treatment and services. With the exception of one
case, the residents named by the complainant received care and services. In the
excepted case, the resident did not receive care consistent with VHA’s defined concept
of HPC. There were no order sets for managing this resident’s symptoms in the final
hours, and CLC nurses expressed frustration as to their own limited level of training and
preparedness in caring for hospice patients in general.

While we did not identify any actual cases of patient harm, we substantiated that a high-
risk resident could wander or elope from a CLC unit. Several factors contributed to this
condition including an outdated electronic monitoring system; an inadequate policy
regarding the management of monitored residents; inconsistent staff practices when an
exit alarm is activated; and staff training deficits.

We did not substantiate that, to increase VERA funding, CLC leaders admitted patients
for rehabilitation even though those patients had no rehabilitation potential. We found
that patients were admitted for valid rehabilitation-related needs, that rehabilitation goals
were appropriately documented, and that progress towards achieving those goals (or
the reasons that goals were not met) was consistently recorded.



VA Office of Inspector General                                                                      11
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


We confirmed that some nursing staff had not received training that would have
enhanced their ability to care for certain patient populations. Specific training deficits
included behavior management techniques, end-of-life care provision, and post-alarm
procedures related to the electronic monitoring system.

We did not substantiate that the CLCMD does not properly supervise the CLC NPs.
EHRs reflected that the CLCMD cosigns the NPs’ H&P notes and discharge summaries
as required, routinely consults with the NPs on more clinically complex cases, and
participates in regular patient care and treatment planning meetings.

We did not substantiate the allegation that the G&EC Chief Nurse Executive does not
adequately address and follow-up on staff concerns and complaints. We did note,
however, that facility leaders did not conduct a risk assessment of the electronic
monitoring system in spite of ongoing safety concerns.

                                   Recommendations 

1.       We recommended that the facility Director ensure that the patient (case 1) end­
of-life care undergoes a quality review.

2.    We recommended that the facility Director ensure that CLC staff are
appropriately trained and competent to care for all CLC residents, regardless of the
residents’ special care needs.

3.     We recommended that the facility Director conduct a risk assessment of the
electronic monitoring system and implement improvements, as indicated.




VA Office of Inspector General                                                                      12
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                                     Appendix A


                             Additional Case Summaries

Case 4 – We did not substantiate the complainant’s allegations that the patient was
improperly admitted to a [non-secure] CLC unit; that staff did not properly notify his
primary providers that the patient was refusing medications; that an incident in early
December 2012, was not properly documented or communicated; that staff did not call
a Code Red (a psychiatric emergency code) related to said incident; and that the patient
was unstable but was still returned to his CLC unit after evaluation in the ED.

The patient is in his late 50s and has a diagnosis of Wernicke-Korsakoff Syndrome.3
He was accepted in April 2012 for a long stay (90+ days) admission to the facility’s
secured CLC unit after several failed discharges to community-based nursing facilities
due to behavioral and safety concerns.4 In June, the secured unit was closed for
renovations and he was moved to an open unit on the 2nd floor and placed on the
electronic monitoring program. EHR documentation reflects that the patient frequently
wandered from his unit to the sister unit, but that staff members were able to redirect
him to his unit with minimal resistance.

In early June, the patient was moved to a 1st floor unit because of renovations on the 2nd
floor. The EHR reflects that between June and September, he was adjusting well to the
open unit but that he still had wandering behaviors which required redirection.

In early December, the patient wandered from his unit. The alarm sounded and two
staff members followed the patient up the atrium stairway to the 2nd floor balcony. The
EHR described the patient as standing near and looking over the railing.5 A staff
member from an adjoining unit who knew the patient was able to redirect him away from
the railing and into the dayroom. That staff member later documented that the patient
had muttered while at the railing, “I’m going to do it.” Once in the dayroom, he voiced
that he wanted to leave and became agitated, kicking a glass partition and swinging at
the staff member with his fist. Another staff member summoned the facility police. The
staff member and the officers were able to redirect the patient back to his 1st floor unit
where he was given an injection of lorazepam6 1 milligram (mg). After being medically
cleared in the ED, he returned to his unit but wandered away again. After being
returned to the unit, he was given haloperidol7 5 mg, which appeared to calm him down.
Two days later, staff had to redirect the patient back to his unit after he wandered again.
His provider and nursing staff evaluated him and documented that his behavior had
returned to baseline.




3
  Damage to areas of the brain involved with memory, aka alcoholic dementia. 

4
  The resident did not meet administrative eligibility for long-term CLC care; however, the patient’s condition and

lack of family support made his discharge to any community setting virtually impossible. 

5
  The facility installed 43-inch railing which exceeded the standard 36-inch railing for patient safety. 

6
  Medication used to treat anxiety. 

7
  Antipsychotic medication used to treat acute psychotic state. 



VA Office of Inspector General                                                                                  13
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


We found that while the patient presented a behavior management challenge for the
staff, the CLC was the most appropriate setting to ensure his care and safety. We also
found that staff did notify the patient’s primary providers that he was refusing
medications, and those refusals were documented in the EHR. The balcony incident in
early December was documented in the EHR by two different nurses, and it appeared
that CLC staff were able to safely and effectively remove the patient from a harmful
situation and provide necessary follow-up and treatment. As such, a Code Red
(psychiatric emergency team response) was not indicated.                Further, EHR
documentation reflected that the patient was stable when he returned to the unit, and
his continued wandering was part of his baseline behavior. Nurse staffing on that unit
that day met the facility’s established standards.

Case 5 – We did not substantiate the allegation that the patient is not placed on the
correct CLC unit, and as a result, is not receiving the appropriate level of care. The
complainant specifically noted that due to the patient’s severe dementia, he frequently
wanders into other patients’ rooms and must be redirected, and that he has had multiple
falls. The complainant also reported that the patient was routinely restrained, which
was forbidden by facility policy.

The patient is a man in his mid-80s with multiple medical problems including severe
dementia. He was admitted to the CLC in August 2012 after transferring from a skilled
nursing facility that could no longer handle his needs. The EHR reflects multiple
episodes of wandering, restlessness/anxiety at night, and repeated falls. In early
December, the interdisciplinary treatment (IDT) team discussed the patient’s recent
behaviors and noted that many sedatives/sleep medications may not be prudent given
his advanced dementia, fall risk, and frailty. The IDT team also discussed the possibility
that pain may be contributing to the patient’s difficulty relaxing well enough to sleep at
night and ordered acetaminophen 1000 mg every 12 hours. The plan was to re-assess
the following week, and if the patient’s sleep had not improved, then a low-dose sleep
medication and other non-pharmacological approaches (warm shower/bath 1–2 hours
before bedtime, sleep hygiene, etc.) would be considered.

In late December, the patient was treated for fever, shortness of breath, and decreased
oxygen saturation thought to be related to aspiration pneumonia due to esophageal
dysfunction. His condition returned to baseline after a course of antibiotics. In late
February 2013, staff noted a decrease in physical mobility with recent “out of character
level of activity/mobility.” The EHR reflected “No focal findings or illnesses. No pain or
discomfort noted or reported. Only new medication is midodrine.” The EHR also
reflected a recent fall with no apparent injury, and “Severe Dementia, may indicate
terminal decline, consider depression.” A palliative care consult was placed at that time.

During a February family meeting, the patient’s family requested that he not be
transferred to Hospice House unless he developed a symptom that his CLC unit could
not address. His family indicated that they wanted to keep him in a familiar environment
for as long as possible. The patient continues to reside in the CLC.




VA Office of Inspector General                                                                      14
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Based on the patient’s service-connected status, he is entitled to long-term CLC care for
as long as is clinically necessary. The CLC screening committee approves admissions,
and unit placements are determined by a variety of clinical and administrative factors.
During our interviews, we were told that, in an effort to redistribute the workload
somewhat, residents with challenging dementia-related behaviors could be placed on
any of the CLC’s four units (which are all equipped with electronic monitoring sensors).
In addition, nursing staff on any of the CLC’s units would be trained and qualified to
redirect a wandering patient, and intervene accordingly, and implement fall-reduction
strategies. We found no evidence that the patient was improperly placed.

We could not confirm or refute the allegation that the patient was routinely restrained, a
practice that was forbidden by facility policy. If any staff members knew of a patient
being improperly restrained, those staff members would have been required to report
the incident(s). We found no reports of improper restraint usage or alleged patient
abuse involving the patient, nor had selected interviewees heard about such problems.
Facility policy includes an addendum outlining the specific steps and requirements for
initiating and maintaining restraints on residents in the CLC. The patient’s EHR entries
reflect that staff consulted occupational therapy, documented actions to avoid initiation
of restraints, and routinely provided 1:1 observation as required.

Case 6 – We did not substantiate the complainant’s allegation that the CLCMD failed to
order a needed swallowing study or that the CLCMD’s order to raise the head of the
patient’s bed to 75 degrees was improper and would have likely caused aspiration.

The patient was in his 80s and had lived in the CLC since 1999. He had a medical
history including cerebral vascular disease with hemiplegic stroke and severe vascular
dementia, hypertension, and diabetes. The complainant alleged that in November
2012, she notified the CLCMD that the patient’s condition was declining and that he was
unable to swallow. The CLCMD evaluated the patient and documented that his decline
was possibly related to several factors, including hypoglycemia or a urinary tract
infection. The CLCMD’s plan included a urine culture and one dose of antibiotics; to
restart the oral [anti-diabetic] agent (which had been discontinued several days earlier
due to the patient’s erratic eating patterns and weight loss); bed rest with the head of
bed elevated to >75 degrees for oral intake; to call the family/guardian; and to observe
for changes. We also noted that the patient had undergone a swallowing study less
than 3 weeks earlier. The speech-language pathologist (SLP) documented that the
patient was known to require significant staff assistance and coaxing at meal times, but
could take food and fluids orally and could consume 100-percent of his meal if given
enough time. The SLP documented, “He will often turn his head away and refuse to
open his mouth” and “It appears that his weight loss is due to him declining to eat.” We
found that the CLCMD’s documented treatment plan for the patient in November was
reasonable given his medical history and presentation, and that there was no indication
for another swallowing study. The order to raise the head of the patient’s bed to >75
degrees was not problematic; in fact, it may have promoted his safe consumption of
food and fluids.




VA Office of Inspector General                                                                      15
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


We also did not substantiate the complainant’s implication that the CLCMD improperly
delayed the patient’s referral for palliative care. In late November, the patient was
transferred to the intensive care unit (ICU) after becoming unresponsive. His EHR
reflected that he had poor blood flow in his lower extremities, and that some tissue
appeared necrotic. The ICU provider documented concerns about dehydration, sepsis,
and multi-system organ failure. The next day, the ICU provider requested a palliative
care consult which the CLCMD completed the same day. The CLCMD documented
that he had spoken with the patient’s wife and that she was accepting of hospice care
but aware that no beds were available in Hospice House at the time. The CLCMD
wrote, “She voiced understanding that he is gravely ill and that death may be expected
at any time and is likely this weekend. She prefers that he stay in the [intensive care]
unit.” Three days later, the patient was admitted to the Hospice House for end-of-life
care. He died the following day.

The patient had been a long-term CLC resident whose medical care needs and
behavioral patterns were well known to the staff. His presenting symptoms in late
November were likely related to several potentially treatable conditions as outlined in
the CLCMD’s progress note and treatment plan. It was not until after the patient’s
admission to the ICU that his poor prognosis for recovery became clear. The PCCT
consult was placed and answered the following day, and per the wife’s request, the
patient remained in the ICU until a bed became available and he could be transferred to
Hospice House.

Case 7 – We did not substantiate the allegation that when the patient’s level of care
changed to hospice status, the CLCMD refused to talk with the next-of-kin (NOK) about
Hospice House, its services, and its amenities.

The resident is a male in his sixties who has significant brain damage due to carbon
monoxide poisoning. He has been a resident of the facility for 40 years. The patient’s
condition began to deteriorate in February 2013 and he was treated for presumed
aspiration pneumonia. In early March, the NP placed a palliative care consult noting a
prognosis/life expectancy of less than 1 week. The patient’s NOK requested that he
remain in the CLC (rather than be transferred to the Hospice House) because he is
familiar with the staff. The PCCT consultation response states, “At this time, niece
requests NO TRANSFER to hospital OR HOSPICE until she visits this weekend.” We
found multiple progress notes reflecting discussions between the CLCMD and NOK
regarding the patient’s condition and the utility of transfer to the Hospice House.

We also did not substantiate that the patient’s NP ordered inappropriate medications
and did not have the specialty training required to care for hospice residents.
Specifically, the complainant questioned the appropriateness of the NP’s orders for
Tylenol™ suppositories and diazepam (IM-intramuscular) as needed for seizures. We
found that the suppositories were an acceptable pain control method given that the
patient had recently aspirated and had had repeated bouts of vomiting. Further, the use
of an injectable, fast-acting medication in the event of an isolated, acute-onset seizure
would be more appropriate than a sublingual tablet administered on a scheduled basis



VA Office of Inspector General                                                                      16
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


to prevent potential seizures. The goal of CLCs is to reduce poly-pharmacy whenever
possible.

The patient’s NP (NP #1) is a certified gerontological NP with many years of clinical
experience. In this case, we saw multiple EHR entries reflecting the NP’s notification of,
or consultation with, the CLCMD regarding treatment and end-of-life care.

We did note, however, that NP #1 had recently been given a collateral assignment to
support the Hospice House team. The NP confirmed to us that she did not possess
specialized skills in this area and indicated her intention to complete the requisite
training.

Case 8 – We did not substantiate the allegation that the patient, who was suffering an
acute medical event, was improperly left on the CLC unit to receive acute care and
monitoring. We also did not substantiate that the CLC was not staffed or equipped to
handle this level of care.

The patient, a veteran in his 80s with a medical history of congestive heart failure and
Type II diabetes, experienced multiple falls while at home and was admitted to the CLC
in mid-December 2012 for short-term restorative care. In late December, NP #2 noted
the patient’s elevated blood sugar of 916 mg/ deciliter (dL)8 and current medication
regimen, and documented “Veteran's blood sugar has been consistently elevated in 400
and 500s since admission” several weeks earlier. The note also reflects that despite his
elevated blood sugar, the patient said he felt fine and that his blood sugars were
“always high."

NP #2 developed a plan of care which included additional insulin and intravenous (IV)
fluids, and NP #2 discussed this plan of care with the covering physician. That evening,
the covering physician received a call from the patient’s nurse reporting that his blood
sugar was greater than 500 mg/dL. Nursing notes indicated that the patient denied any
feelings of excessive thirst, urination, or excessive sweating.         The nurse also
documented the patient’s desire to remain in the CLC, stating “I don't want to go to the
hospital, you can do just as good of a job here, and I'm going to stay here." The
covering physician documented that the patient was asymptomatic and did not appear
to be in diabetic ketoacidosis.9 At that time, the facility had no available acute care
beds and was on diversion status.

The CLC covering physician placed orders for a urinalysis, basic metabolic panel,
insulin, and a continuation of IV fluids previously ordered by NP #2. Within 1 hour of the
physician’s orders, nursing notes reflected improvement in the patient’s blood sugar
from 916 to 717 mg/dL. His condition continued to improve and laboratory results


8
  According to the American Diabetes Association, diabetic patients should be 70 – 130 (mg/dL) before meals, and 

less than 180 mg/dL after meals (as measured by a blood glucose monitor).

9
  Ketoacidosis is a serious complication of diabetes that occurs when the body produces high levels of blood acids 

because of its inability to produce enough insulin. 



VA Office of Inspector General                                                                                 17
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


documented shortly after midnight noted a blood glucose of 211 mg/dL. The patient has
since been discharged home.

Because the facility was on diversion, the patient would have had to have been
transferred to a private-sector facility for acute care. Given that he was asymptomatic
during the entire event and expressed a desire to stay in the CLC and receive care
there, the covering physician’s decision to treat the patient in place was reasonable.
The physician’s orders were routine, and the CLC nurses were not required to provide
care outside of their basic skill sets. The EHR reflects ongoing communication between
the covering physician and nursing staff. Also, nurse staffing during those shifts met the
facility’s established standards.

Case 9 – We did not substantiate the complainant’s implication that the CLCMD did not
adequately respond to the patient’s cough, congestion, and elevated white blood cell
count (a sign of possible infection). The complainant alleged that the CLCMD ordered
blood work and a urine culture although the patient did not complain of urinary
symptoms, and did not prescribe antibiotics to clear a respiratory infection.

The patient is a long-term CLC resident in her 60s with a history of chronic obstructive
pulmonary disease. In mid-November, a nurse noted that the patient was continuing to
exhibit cold symptoms with congestion and a non-productive cough. The nurse notified
the patient’s NP (NP #1), who ordered a chest x-ray which was negative. A nutritional
supplemental was added to her diet, and she received cough medications as ordered.

Four days later, the patient continued to exhibit a non-productive cough. The nurse
documented the patient reported feeling "poorly" with a decreased appetite and oral
intake at meals. The CLCMD evaluated the patient about 2 hours later, who at that time
reported feeling better with a decrease in her coughing and a return of her appetite and
energy. She denied fever, chills, sputum production, or congestion. She also denied
urinary symptoms. The CLCMD documented:

       Impression:
       1. 	 Resolving Upper Respiratory Tract Infection, probable viral with
              Lymphocytosis.
       2.    	Leukocytosis, impressive
       3. 	 Nursing reports urinary symptoms that are not volunteered by
              Veteran, consider UTI [urinary tract infection].

The CLCMD’s plan of care included a urinalysis and culture; to repeat the blood work in
3 days; and to continue the plan of care. No antibiotic was ordered at that time.

Ten days later, the CLCMD evaluated the patient and documented that she still had a
non-productive cough, but she denied fever or feeling ill. The CLCMD prescribed
antibiotics to treat for possible bronchitis. He also noted that the patient continued to
smoke. One week later, the patient’s symptoms were resolving, and she was no longer
wearing an oxygen mask or complaining of cough or shortness of breath.



VA Office of Inspector General                                                                      18
     Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


The CLCMD’s orders and plan of care in late November were appropriate given the
patient’s presenting symptoms, self-report of “feeling better,” and the nursing report of
urinary symptoms. As the CLCMD believed the upper respiratory infection was
probably viral, antibiotics were not indicated at that time. The urine culture was
appropriate as nursing staff reported urinary symptoms that the patient did not
“volunteer.”10 The CLCMD took a reasonable and cautious approach to the patient’s
treatment to see if her condition would resolve on its own. When it did not, he
prescribed antibiotics to treat possible bronchitis.

Cases 10 and 11 – We did not substantiate the allegation that two other CLC residents
may have been “hit” or “manhandled” by two specific staff members. The complainant
did not witness the alleged abuse but described how these two patients could be heard
“yelling for help” when they were receiving assistance with personal care activities. The
employee who reportedly witnessed the alleged abuse was on extended leave and
unavailable for interview.

Employees are required by policy to report actual or suspected patient abuse or neglect;
however, CLC managers and facility leaders were unaware of any concerns about
these two patients. One interviewee told us that some of her colleagues do not make
an effort to learn residents’ preferences and what techniques work best when caring for
them. The interviewee had not witnessed any patient abuse or mistreatment. However,
the two patients in question both have dementia and have been noted in the past to be
agitated and resistant to care at times.




10
  UTIs in the elderly may not cause clear symptoms or involve pain or discomfort; therefore, patients may not
believe they have anything to report.


VA Office of Inspector General                                                                                  19
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                          Appendix B
                            VISN Director Comments


               Department of
               Veterans Affairs                                      Memorandum


   Date:       June 13, 2013

   From:       Director, VA Mid-Atlantic Health Care Network (10N6)

   Subject: 	Healthcare Inspection – Quality and Patient Safety Concerns in the
             CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC

   To:	        Director, Atlanta Office of Healthcare Inspections (54AT)

    Thru:	     Director, VHA Management Review Service (VHA 10AR MRS OIG
               Hotlines)



               1. Attached is the action plan developed by the W.G. (Bill) Hefner
               VA Medical Center, in response to the recommendations received.

               2. The facility concurs with the findings and will ensure the
               corrective action plan is implemented.

               3. If you have any questions please contact Lisa Shear, VISN 6
               QMO, at (919) 956-5541.



               (original signed by:)


               DANIEL F. HOFFMANN, FACHE




VA Office of Inspector General                                                                      20
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                          Appendix C
                         Facility Director Comments


               Department of
               Veterans Affairs                                      Memorandum


   Date:       June 13, 2013

   From:       Director, W.G. (Bill) Hefner VA Medical Center, Salisbury,
               NC (659/00)

   Subject: Healthcare Inspection – Quality and Patient Safety Concerns in the
            CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC

   To:         Director, VA Mid-Atlantic Health Care Network (10N6)



               1. I have reviewed the draft report of the Office of Inspector General
                  and I concur with the recommendations.
               2. I have included my response in the attached Director’s
                  Comments.
               3. Please contact me if you have any questions or comments.




               (original signed by:)

               Kaye Green FACHE 

               Director, W. G. (Bill) Hefner VA Medical Center (659/00) 





VA Office of Inspector General                                                                      21
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1.          We recommended that the facility Director ensure that case
1”s end-of-life care undergoes a quality peer review.

Concur

Target date for completion: July 23, 2013

Facility response: One May 28, 2013 the Risk Manager sent a request for peer review
to the VISN Lead for Geriatrics and Extended Care. The peer review is expected to be
completed no later than July 12, 2013. The review will be presented to the Medical
Center Peer Review committee on July 23, 2013. A peer review will also be completed
for the nursing care rendered to [the patient]. The nursing peer review will be
presented to the peer review committee on July 23, 2013.
Recommendation 2.            We recommended that the facility Director ensure that CLC
staff are appropriately trained and competent to care for all CLC residents, regardless of
the residents’ special care needs.

Concur

Target date for completion: August 1, 2013

Facility response: Patient Care Services reassigned a full time nurse educator to
increase availability of training and provide additional face to face education tailored to
long term care needs. Training for the three recommended areas began in February
2013. Training for the Wander guard system has been completed for 98% (128/131) of
patient care services staff currently assigned to the CLC. There are three staff; one on
FMLA and two detailed to other services that have not completed the training. Those
employees will be trained upon returning to the CLC. Secondly, training continues on
the End of Life Nursing Education Consortium (ELNEC). 50% (66/131) of patient care
services staff have completed the training. The three hour class is offered four times per
month. All patient care services staff are expected to complete the program by August
1, 2013. Lastly, 71% (94/131) of patient care services staff have completed the phase I
of the Prevention and Management of Disruptive Behaviors (PMDB) class. In addition,
54% (72/131) have completed Phase II. Additional classes are offered three times per
month to ensure all patient care services staff attends. Training for PMDB is expected
to be completed by August 1, 2013.




VA Office of Inspector General                                                                      22
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Recommendation 3.       We recommended that the facility Director conduct a risk
assessment of the electronic monitoring system and implement improvements, as
indicated.

Concur

Target date for completion: October 1, 2013

Facility response: A risk assessment was completed and it was determined that the
current electronic monitoring system does not meet safety expectations for prevention
of wandering at risk residents. The risk assessment team has evaluated the risks and
steps have been taken to mitigate or avoid any potential risks during the installation of a
newer electronic monitoring system. CLC leadership, with direct care staff input,
reviewed products to determine the best option for electronic monitoring for wandering
residents. The Roam Alert electronic monitoring system, used in conjunction with the
Renault 5 Nurse Call System was selected. As the CLC is currently under construction,
installation will occur as each resident care area is constructed or renovated. The entire
project is slated to be completed by October 2014. The first renovated area is expected
to be completed for initial move-in early October 2013. The area will house the
rehabilitation unit on the first floor and our most vulnerable residents in the dementia
unit on the second floor. The remaining areas will follow and will continue to use the
present electronic monitoring system if needed and operate under the contingency plan
currently implemented.




VA Office of Inspector General                                                                      23
   Quality and Patient Safety Concerns in the CLC, W. G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                          Appendix D

                 OIG Contact and Staff Acknowledgments
Contact 	                For more information about this report, please contact the
                         OIG at (202) 461-4720.
Contributors 	           Victoria Coates, LICSW, MBA, Team Leader
                         Karen Sutton, BSHCM
                         Sheyla Desir, RN, MSN
                         Thomas Jamieson, MD




VA Office of Inspector General                                                                      24
    Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                          Appendix F



                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Mid-Atlantic Healthcare System (10N6)
Director, W.G. (Bill) Hefner VA Medical Center (659/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Richard Burr and Kay R. Hagan
U.S. House of Representatives: Virginia Foxx, Richard Hudson, and Melvin L. Watt



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                      25
